REVIEW OF FAA’S SAFETY OVERSIGHT OF
  AIRLINES AND USE OF REGULATORY
       PARTNERSHIP PROGRAMS
        Federal Aviation Administration
         Report Number: AV-2008-057
          Date Issued: June 30, 2008
           U.S. Department of
                                                                  Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Review of FAA’s Safety Oversight of                                      Date:    June 30, 2008
           Airlines and Use of Regulatory Partnership
           Programs
           Federal Aviation Administration
           Report Number AV-2008-057

  From:    Calvin L. Scovel III                                                          Reply to
                                                                                         Attn. of:   JA-1
           Inspector General

    To:    Acting Federal Aviation Administrator

           This report presents the interim results of our review of the Federal Aviation
           Administration’s (FAA) oversight of airlines’ regulatory partnership programs and
           its national program for risk based oversight, the Air Transportation Oversight
           System (ATOS). We initiated this review in response to a February 6, 2008,
           request from the Chairman of the House Committee on Transportation and
           Infrastructure. Specifically, the Chairman requested that we determine whether
           FAA thoroughly investigated whistleblowers’ complaints regarding FAA’s
           oversight of Southwest Airlines (SWA).

           The whistleblower allegation focused on SWA’s failure to follow a critical FAA
           airworthiness directive (AD) and an FAA inspector’s role in allowing the air
           carrier to continue flying aircraft in violation of the AD. The FAA directive 1 in
           this case required SWA to inspect the fuselages of its Boeing 737s for potential
           cracks that could lead to rapid decompression and fatal accidents. FAA issued this
           directive after an Aloha Airlines 737 lost a major portion of its hull while in flight
           at 24,000 feet in 1988, resulting in one fatality and multiple injuries. The
           Chairman also requested that we determine whether FAA took corrective actions
           in a timely manner.

           The objectives of our initial review were to determine (1) the thoroughness of
           FAA’s investigation of the whistleblower allegations and (2) the type and
           timeliness of corrective actions taken by FAA in response to any inappropriate

           1
               FAA Airworthiness Directive 2004-18-06 requires that Boeing 737s (series 200, 300, 400, and 500) be inspected for
               fuselage cracks every 4,500 cycles (1 cycle equals 1 take-off and landing) after they reach 35,000 cycles.
                                                                                                                  2


inspector actions. At the request of Congress, we continue to review FAA’s air
carrier oversight processes to determine if there are areas in which FAA could
strengthen its oversight. Exhibit A contains our scope and methodology. Exhibit
B lists the agencies we contacted or visited.

We testified before the House Committee on Transportation and Infrastructure
regarding the SWA matter on April 3, 2008. 2 We subsequently testified before
two Senate subcommittees: the Senate Committee on Commerce, Science, and
Transportation, Subcommittee on Aviation Operations, Safety, and Security on
April 10, 2008, 3 and the Senate Committee on Appropriations, Subcommittee on
Transportation, Housing and Urban Development, and Related Agencies on
April 17, 2008. 4

During these testimonies, we made a series of recommendations to improve
FAA’s air carrier oversight practices. We are continuing our review of these
issues and plan to issue a final report later this year. This interim report formally
transmits to FAA the recommendations we have identified to date. FAA generally
agreed with most of our recommendations for improving controls over its
regulatory partnership programs and its national ATOS program. However, FAA
did not agree with the two following recommendations, which are fundamental in
improving its oversight of air carriers: (1) periodically rotate supervisory
inspectors to ensure reliable and objective air carrier oversight and (2) establish an
independent organization to investigate safety issues identified by FAA
employees. Given the seriousness of the issues these recommendations were
intended to address, we believe FAA needs to reconsider its position.

Our complete recommendations, a summary of the Agency’s comments, and our
response can be found on pages 9 through 12 of this report. FAA’s response is
included in its entirety in the appendix.


BACKGROUND
According to SWA, it discovered it had violated the AD requiring fuselage
inspections on March 14, 2007, and notified an FAA principal maintenance
inspector (PMI) the following day. Although FAA requires air carriers to ground
non-compliant aircraft and its inspectors to ensure that carriers comply, the
inspector did not direct SWA to ground the 46 affected aircraft.

2
    OIG Testimony Number CC-2008-046, “Actions Needed to Strengthen FAA’s Safety Oversight and Use of
    Partnership Programs,” April 3, 2008. OIG reports and testimonies are available on our website: www.oig.dot.gov.
3
    OIG Testimony Number CC-2008-067, “Key Safety Challenges Facing the Federal Aviation Administration,”
    April 10, 2008.
4
    OIG Testimony Number CC-2008-070, “Key Safety and Modernization Challenges Facing the Federal Aviation
    Administration,” April 17, 2008.
                                                                                    3


Instead, the PMI encouraged SWA to formally self-disclose the AD violation
through its Voluntary Disclosure Reporting Program (VDRP), which would allow
the carrier to avoid any penalties. FAA accepted the air carrier’s self-disclosure
on March 19, 2007, even though it had already accepted multiple disclosures on
AD violations. SWA continued to operate the non-compliant aircraft on
1,451 flights for 8 days after the carrier first notified FAA, carrying an estimated
145,000 passengers. We estimate that, in total, aircraft flew in violation of the AD
for up to 9 months, carrying 6 million passengers during this period.

Once it formally self-disclosed the violation, SWA stated that it was in compliance
with the AD, meaning it had inspected or grounded all affected aircraft. However,
two FAA inspectors (the whistleblowers in this case) and SWA officials reported
that the PMI had knowingly permitted SWA to continue flying the identified
aircraft even after SWA’s self-disclosure.

During our review, we found that several of these aircraft flew into airports
multiple times after SWA self-disclosed the overflight where they could have
received the required inspections. When SWA finally inspected the aircraft, it
found fuselage cracks in five of them. The AD specifies that these cracks could
potentially lead to fuselage separation and rapid aircraft depressurization if left in
disrepair.


SUMMARY OF RESULTS
The events at SWA demonstrated serious lapses in FAA’s air carrier oversight.
We found that FAA’s inspection office overseeing SWA (the Certificate
Management Office, or CMO) developed an overly collaborative relationship with
the air carrier, which allowed repeated self-disclosures of AD violations through
its partnership program. We also found significant weaknesses in the Agency’s
ATOS program, which allowed AD non-compliance issues within SWA’s
maintenance program to go undetected for years. In addition, we found
weaknesses in FAA’s (1) processes for conducting internal reviews and ensuring
corrective actions and (2) policies for protecting employees who report critical
safety issues.

The breakdown in FAA’s air carrier oversight occurred because FAA did not
implement and enforce effective management controls over its air carrier oversight
program. Those controls include the plans, policies, and procedures necessary to
meet missions, goals, and objectives and ensure compliance with applicable laws
and regulations. Additionally, although FAA implemented an internationally
recognized standard for establishing quality management systems, known as ISO-
9001, it failed to apply important requirements of the standard. Those
                                                                                 4


requirements include regularly reviewing and improving Agency processes to
ensure they are effective.

Because FAA did not implement and enforce effective management controls over
its air carrier oversight programs, including ISO-9001 requirements, the events at
SWA were allowed to transpire. Further, because these control deficiencies exist
across the ATOS and voluntary disclosure programs, FAA cannot have assurance
that these problems are unique to SWA.

FAA has begun actions to address the SWA safety directive violation; these
include initiating a review of AD compliance at SWA and other air carriers and
proposing to fine SWA more than $10 million. While FAA’s actions are
necessary, albeit long overdue, the seriousness of the issues we identified will
require immediate and comprehensive changes to FAA’s air carrier oversight
program.


Overly Collaborative Relationship With the Air Carrier Contributed to
Breakdowns in Partnership Program
We found that the CMO overseeing SWA developed an overly collaborative
relationship with the air carrier that allowed repeated self-disclosures of AD
violations through its partnership program. Partnership programs are intended to
encourage data-sharing between FAA and air carriers to identify and address
safety issues. Yet, FAA allowed SWA to repeatedly self-disclose AD violations
without ensuring that SWA had developed a comprehensive solution for reported
safety problems—which is required for FAA to accept the disclosure and absolve
the carrier of any penalty.

Clearly, SWA’s proposed solutions, which FAA has repeatedly accepted, have
failed to solve AD compliance issues as the carrier has violated four different ADs
eight times since December 2006, including five in 2008. FAA’s oversight in this
case appears to allow, rather than mitigate, recurring safety violations.

FAA maintains that disclosure programs are valuable, as they can help to identify
and correct safety issues that might not otherwise be obtainable. However, we are
concerned that FAA relies too heavily on self-disclosures and promotes a pattern
of excessive leniency at the expense of effective oversight and appropriate
enforcement. Further, a partnership program that does not ensure carriers correct
underlying problems is less likely to achieve safety benefits.

The overly collaborative relationship with the air carrier occurred because FAA
did not have the following management controls over its partnership program:
                                                                                    5


 • FAA did not ensure adequate segregation of duties. This entails dividing
   duties and responsibilities among different individuals to reduce the risk of
   error or fraud. In the SWA case, the PMI was responsible for both acceptance
   and closure of the carrier’s self-disclosure through the VDRP. The CMO
   manager was not aware of the significance of the violation, or of the PMI’s
   complicity in allowing the violation to continue, because the program does not
   require management review of the report at any point in the process.

   The events at SWA demonstrated that FAA must implement and enforce a
   process for second-level supervisory review of self-disclosures before they are
   accepted and closed—acceptance should not rest solely with one inspector.
   FAA should also periodically rotate supervisory inspectors to ensure reliable
   and objective air carrier oversight.

 • FAA did not have management controls for avoiding a potential conflict of
   interest among its employees dealing with the carrier. Specifically, the
   SWA Regulatory Compliance Manager was a former FAA inspector assigned
   to SWA who reported directly to the PMI when he worked at FAA. The
   employee was able to transition from being an FAA inspector to a SWA
   manager in just 2 weeks. In his new job, he served as the liaison between the
   carrier and FAA and managed Southwest’s AD Compliance Program and its
   Voluntary Disclosure Reporting Program.

   FAA needs to implement post-employment guidance that includes a “cooling-
   off” period (e.g., 2 years) to prohibit an FAA inspector hired at an air carrier he
   or she previously inspected from acting in any type of liaison capacity between
   FAA and the carrier. This type of control is found throughout the Government
   to ensure that senior Agency officials cannot immediately be employed in a
   liaison capacity by the organizations they formerly regulated.

 • FAA failed to implement management controls to verify the propriety and
   integrity of corrective actions taken. In the case of SWA, FAA allowed the
   carrier to repeatedly self-disclose AD violations without ensuring that SWA
   had developed a comprehensive solution for reported safety problems.

   FAA must ensure that its VDRP guidance requires inspectors to (a) verify that
   air carriers take comprehensive actions to correct the underlying causes of
   violations identified through self-disclosure programs and (b) evaluate, before
   accepting a new report of a previously disclosed violation, whether the carrier
   developed and implemented a comprehensive solution.

Finally, it appears that FAA management fostered a culture whereby air carriers
were considered the primary customer of its oversight mission instead of the flying
public. Satisfying customer requirements is a key tenet of the ISO 9001 Quality
                                                                                           6


Standards. To meet this requirement, FAA announced its Customer Service
Initiative in 2003, which defined its customers as the people and companies
requesting FAA certification, other aviation services, or information related to the
products and mission of the FAA. The initiative, however, was geared toward
airlines, repair stations, and other commercial operators—not the flying public.

The SWA case appears to illustrate that FAA’s definition of its customer has had a
pervasively negative, although unintended, impact on its oversight program. FAA
must ensure its air carrier oversight mission clearly identifies the flying public as a
primary stakeholder and beneficiary of its inspection efforts. FAA should commit
to this in writing and communicate it to all FAA inspection staff.


Missed Inspections at SWA Demonstrate Weaknesses in FAA’s
National Oversight
Our work at SWA and other carriers found weaknesses in FAA’s national program
for risk-based oversight, ATOS. At SWA, multiple missed ATOS inspections
allowed AD compliance issues in SWA’s maintenance program to go undetected
for several years. As early as 2003, one of the whistleblowers expressed concerns
to FAA about SWA’s compliance with ADs. In 2006, he began urging FAA to
conduct system-wide reviews, but FAA did not begin these reviews until after the
details of the March 2007 disclosure became public.

In fact, FAA inspectors had not reviewed SWA’s system for compliance with ADs
since 1999. At the time of the SWA disclosure, FAA inspectors had not
completed 21 key inspections in at least 5 years. While FAA has subsequently
completed some of these inspections, as of April 15, 2008, 4 of these inspections
were still incomplete; some had not been completed for nearly 8 years.

We have previously identified system-wide problems with ATOS. For example,
in 2002,5 we found inconsistent inspection methods across FAA field offices for
various carriers. As a result, FAA inspectors were confused over how to conduct
ATOS inspections and assess risks. We recommended that FAA strengthen
national oversight and accountability to ensure consistent field implementation of
ATOS. FAA agreed that it needed to strengthen national oversight and stated that
the newly appointed director of Flight Standards (at Headquarters) would enhance
oversight and hold field offices accountable for implementing ATOS effectively.
However, this action still did not improve consistency with ATOS inspections at
field offices.




5
    OIG Report Number AV-2002-088, “Air Transportation Oversight System,” April 8, 2002.
                                                                                                                7


In our 2005 report, 6 we found that inspectors did not complete 26 percent of
planned ATOS inspections—more than half of these were in identified risk areas.
We recommended, among other things, that FAA strengthen its national oversight
and accountability to ensure consistent and timely ATOS inspections. However,
FAA still has not fully addressed our recommendations.

Had FAA strengthened its national oversight by implementing effective
management controls, it would have been able to monitor the extent to which
required inspections were not being performed and it would have been able to
intervene earlier to correct the problem. Effective management controls should be
designed to ensure ongoing monitoring occurs in the course of normal operations
at all levels of an organization.

Ongoing monitoring is also a key ISO 9001 requirement. Those monitoring
activities should assess the quality of the program’s performance over time and
ensure that the findings of audits and other reviews are promptly resolved. Also,
because the control deficiencies we found in FAA’s oversight of SWA inspections
reflect inadequate oversight at the national and regional management levels, FAA
executives cannot be assured that the problems that existed at SWA are unique to
that location.

FAA must implement a Headquarters-based process to monitor field office
inspections.    The process should alert local, regional, and Headquarters
management of overdue inspections so that immediate corrective actions can be
taken. FAA must also develop a national review team that conducts periodic
quality assurance reviews of FAA’s oversight of air carriers to ensure that
(1) appropriate processes and procedures are applied and (2) pertinent policies,
laws, and regulations are followed. Ultimately, this quality assurance function
should provide FAA executives with reasonable assurance that inspections are
completed in a thorough and timely manner.


Events at SWA and NWA Demonstrate Weaknesses in FAA’s Internal
Reviews of Safety Issues and Protection for Employees Who Report
Them
Our work at SWA and Northwest Airlines (NWA) has identified weaknesses in
FAA’s processes for conducting internal reviews, ensuring corrective actions, and
protecting employees who report safety concerns. In the SWA case, FAA’s
internal reviews found as early as April 2007 that the PMI was complicit in
allowing SWA to continue flying aircraft in violation of the AD. Yet, FAA did



6
    OIG Report Number AV-2005-062, “FAA Safety Oversight of an Air Carrier Industry in Transition,” June 3, 2005.
                                                                                   8


not attempt to determine the root cause of the safety issue nor initiate enforcement
action against the carrier until November 2007.

At NWA, FAA’s reviews of an inspector’s safety concerns were limited and
overlooked key findings identified by other inspectors. Although some of the
inspector’s safety concerns were valid, FAA informed him that all of his concerns
lacked merit.

We also have concerns regarding FAA’s failure to protect employees who report
safety issues from retaliation by FAA managers and other FAA employees. For
example, in the SWA case, after one whistleblower voiced his concerns to FAA,
an anonymous hotline complaint was lodged against him. According to the CMO
manager, the PMI indicated that a SWA representative submitted the complaint.

The complaint was non-specific and never substantiated, but the whistleblower
was removed from his oversight duties for 5 months while under investigation.
However, unlike the whistleblower, the PMI who admitted he allowed SWA to
continue flying in violation of the AD was never completely relieved of his
oversight duties; he was merely transferred to another FAA office.

Our work at NWA found the same problem with FAA’s handling of the inspector
who reported safety concerns. As with the inspector in the SWA case, FAA
managers reassigned an experienced inspector to office duties, following a
complaint from the airline, and restricted him from performing oversight on the
carrier’s premises.

The issues exposed at both of these air carriers show that FAA did not establish an
appropriate control environment or a reliable internal review process; it also failed
to protect employees who identified important safety issues. To prevent
recurrence of this situation, FAA should establish an independent organization
(that reports directly to the FAA Administrator or Deputy Administrator) to
investigate safety issues identified by its employees.


RECOMMENDATIONS
Our recommendations are a result of our work to date on FAA’s safety oversight
of airlines and use of regulatory partnership programs. At the request of Congress,
we are continuing to review FAA’s Voluntary Disclosure Reporting and ATOS
programs, and we will make further recommendations based on that work. Our
interim recommendations focus on basic management controls identified thus far
that FAA must implement immediately to ensure it is (1) meeting the missions,
goals, and objectives of its air carrier oversight program and (2) fully complying
with all applicable laws and regulations.
                                                                                    9


Accordingly, we recommend that FAA implement the following management
controls over the VDRP process:

   1. Implement and enforce a process for second-level supervisory review of
      self-disclosures before they are accepted and closed—acceptance and
      closure should not rest solely with one inspector.
   2. Ensure that inspectors (a) verify that air carriers take comprehensive actions
      to correct the underlying causes of violations identified through self-
      disclosure programs and (b) evaluate—before accepting a new report of a
      previously disclosed violation—whether the carrier developed and
      implemented a comprehensive solution.

We also recommend that FAA implement the following management controls over
its risk-based ATOS program:

   3. Develop procedures for periodically rotating supervisory inspectors to
      ensure reliable and objective air carrier oversight.
   4. Implement post-employment guidance that includes a “cooling-off” period
      (e.g., 2 years) that prohibits an FAA inspector hired at an air carrier he or
      she previously inspected from acting in any type of liaison capacity
      between FAA and the carrier.
   5. Ensure its air carrier oversight mission clearly identifies the flying public as
      a primary stakeholder and beneficiary of its inspection efforts; FAA should
      commit to this in writing and clearly communicate it to all FAA inspection
      staff.
   6. Implement a process to monitor field office inspections and alert local,
      regional, and Headquarters management to overdue inspections so that
      immediate corrective actions can be taken.
   7. Create a national review team to conduct periodic quality assurance reviews
      of FAA’s oversight of air carriers to ensure that (a) appropriate processes
      and procedures are being applied consistently and (b) pertinent policies,
      laws, and regulations are being followed.

Finally, we recommend that FAA implement the following general management
control:

   8. Establish an independent organization (that reports directly to the FAA
      Administrator or Deputy Administrator) to investigate safety issues
      identified by FAA employees.
                                                                                  10


AGENCY COMMENTS AND OIG RESPONSE
We provided FAA with our draft report on May 28, 2008, and received FAA’s
comments on June 24, 2008. In its written response, FAA agreed to fully
implement all but two of our eight recommendations. FAA did not agree with our
recommendation to periodically rotate inspectors (recommendation 3) and
partially agreed with our recommendation to establish an independent
investigative organization (recommendation 8).

In its response to recommendation 3, FAA stated that it is evaluating the
recommendation to periodically rotate supervisory inspectors to ensure reliable
and objective air carrier oversight. FAA stated that it is concerned that it would
not be practical to require inspectors and their families to relocate on a regular
basis. FAA also stated that from a budgetary perspective, the yearly costs of
rotating inspectors would be exorbitant.

We recognize the logistical and budgetary constraints this initiative could create;
however, we continue to believe that FAA needs a process to ensure objective air
carrier oversight by its inspectors. FAA should reconsider its response and
develop alternatives that would address the intent of our recommendation to
provide greater assurance that FAA inspectors do not develop overly collaborative
relationships with the air carriers they oversee.

Possible alternatives could include (a) incorporating assessments to determine if
there is an overly collaborative relationship between inspectors and the air carriers
they oversee into FAA’s Air Carrier Evaluation Program and establishing a
process for reassigning those inspectors who have developed such relationships
and (b) modifying FAA’s aviation safety inspector training program to include
additional sensitivity and integrity training for air carrier relations. Accordingly,
we are requesting that FAA reconsider its position regarding this recommendation
and provide us with alternative planned actions.

In response to recommendation 8, FAA stated partial agreement because it has
already deployed the Safety Issues Report System (SIRS) Process to provide an
avenue for employees to resolve safety issues without fear of repercussions and to
document issues and decisions to promote consistency in the application of safety
standards.

FAA’s response is unacceptable. Although FAA stated that it partially agreed
with our recommendation, the actions taken do not demonstrate a commitment on
FAA’s part to address the root causes of the issues we identified. Our work at
SWA and NWA identified serious weaknesses in FAA’s processes for conducting
internal reviews, ensuring corrective actions, and protecting employees who report
safety concerns.
                                                                                 11


In our view, SIRS merely adds one more process to an already existing internal
reporting process within the Aviation Safety Organization that is unequivocally
ineffective and possibly even biased against resolving root causes of serious safety
lapses.     Implementation of SIRS does not address the intent of our
recommendation, which was to establish an independent organization (reporting
directly to the Administrator or Deputy Administrator) to investigate safety issues
identified by FAA employees. Accordingly, we are requesting that FAA
reconsider its position regarding this recommendation.

FAA concurred with our remaining recommendations (1, 2, 4, 5, 6, and 7).
Specifically, FAA agreed to:

 • Revise FAA Order 8900.1, Flight Standards Information Management System,
   to require field office management to sign off on acceptance of a VDRP report
   and ensure that the operator has completed the comprehensive fix appropriately
   before closing out the VDRP report. FAA published interim guidance to this
   effect on May 1 and plans to incorporate this policy change into permanent
   guidance by September 30, 2008.

 • Amend FAA Order 8900.1 and the VDRP Advisory Circular to emphasize
   reviewing the comprehensive fix proposed by the operator to ensure it
   addresses the issue being reported. FAA will also update inspector guidance to
   ensure principal inspectors and management consider the nature of each report,
   including repeated reports of the same regulation. FAA plans to complete this
   action by May 1, 2009.

 • Initiate a rulemaking to establish a 2-year cooling-off period for FAA
   inspectors. The Rulemaking Project Record, which starts the rulemaking
   process, was approved on May 15.

 • Reiterate its commitment to the safety of the flying public by having the
   Associate Administrator for Aviation Safety visit every FAA Region.

 • Modify its Aviation Safety Dashboard to show the percentage of the ATOS
   inspections assigned and completed, those that have not been assigned, and the
   reasons for the unassigned. FAA agreed to send Alert Notifications to the
   regional division managers at the end of each calendar quarter.

 • Revise its guidance to require Air Carrier Evaluation Program audits to be
   conducted on a regular basis.

We consider FAA’s planned actions to these recommendations to be responsive
and therefore consider them resolved pending completion.        If properly
                                                                               12


implemented, FAA’s actions should significantly enhance its oversight of air
carriers and its use of regulatory partnership programs.


ACTIONS REQUIRED
We request that FAA reconsider its position regarding recommendations 3 and 8
and provide us with a revised response to those recommendations within
15 calendar days. FAA’s planned actions are responsive to the intent of our other
recommendations and we consider those recommendations resolved pending
completion of the planned actions.

According to Department of Transportation Order 8000.1C, we will follow up
with FAA on recommendations 1, 2, 4, 5, 6, and 7 to ensure its corrective actions
are consistent with the intent of those recommendations.

We appreciate the courtesies and cooperation of FAA representatives during this
audit. If you have any questions concerning this report, please contact Lou Dixon,
Assistant Inspector General for Aviation and Special Program Audits, at
(202) 366-0500.

                                        #

cc:   Anthony Williams, ABU-100
      Martin Gertel, M-1
                                                                                   13




EXHIBIT A. SCOPE AND METHODOLOGY
We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives. We conducted this review between February and March of 2008.

Two FAA inspectors alleged that SWA was permitted to operate aircraft in violation
of a mandatory airworthiness directive because of an overly collaborative relationship
between the local FAA inspection office and the air carrier.        These inspectors
requested protection under the Whistleblower Act. In February 2008, the House
Committee on Transportation and Infrastructure requested that we review FAA’s
handling of the SWA matter and examine FAA’s oversight from a national
perspective. To accomplish this, we performed work at FAA’s Southwest Regional
Office, two FAA certificate management offices, a Flight Standards District Office,
and Southwest Airlines. Throughout our review, we contacted FAA Flight Standards
Service officials to apprise them of our review progress.

To obtain details about the allegation, members of the Office of Inspector General
audit and investigative staff interviewed the whistleblowers at the local FAA
certificate management offices in Irving and Fort Worth, Texas, in February 2008.
We also analyzed inspection data from FAA inspection databases to determine the
validity of the allegations. We obtained inspection reports from these data sources to
identify strengths and weaknesses in FAA’s surveillance of SWA as related to the
whistleblowers’ concerns.

To determine whether FAA’s Security and Hazardous Materials Division thoroughly
investigated the whistleblowers’ complaints regarding FAA’s oversight of Southwest
Airlines, we reviewed the Division’s report of investigation and interviewed the
investigator that completed the review. The investigative report contained numerous
interviews of FAA personnel and served as a basis for our selection of individuals to
interview to obtain further information.

The Committee also requested that we examine FAA’s oversight from a national
perspective and provide any recommendations to strengthen FAA’s oversight of the
air carrier industry. Over the next 6 months, we plan to conduct a series of audits to
address the Committee’s concerns in this area.




Exhibit A. Scope and Methodology
                                                              14




EXHIBIT B. AGENCIES VISITED OR CONTACTED

Federal Aviation Administration

Headquarters:

      Flight Standards Service               Washington, DC

Regional Offices:

      Southwest Regional Office              Fort Worth, TX

      FAA Security and Hazardous Materials

      Division                               Fort Worth, TX

Certificate Management Offices (CMO):

      Southwest Airlines CMO                 Irving, TX

      American Airlines CMO                  Fort Worth, TX

Flight Standards District Office (FSDO):

      Dallas-Fort Worth FSDO                 Fort Worth, TX


Air Carrier

      Southwest Airlines                     Dallas, TX




Exhibit B. Agencies Visited or Contacted
                                                                                                  15




APPENDIX. MANAGEMENT COMMENTS
                        Federal Aviation
                        Administration


Memorandum
Date:           June 24, 2008
To:             Matthew E. Hampton, Deputy Assistant Inspector General for Aviation and
                Special Program Audits

From:           Ramesh K. Punwani, Assistant Administrator for Financial Services/CFO

Prepared by:    Anthony Williams, x79000
Subject:        OIG Draft Report: Review of FAA’s Safety Oversight of Airlines and Use of
                Regulatory Partnership Programs


Thank you for providing us the draft report of your audit of “Review of FAA’s Safety Oversight of
Airlines and Use of Regulatory Partnership Programs.” We agree that there were serious lapses on
behalf of some individuals at the Southwest Certificate Management Office and the Southwest
regional office. We value the Report’s recommendations and will implement each to the extent they
are practicable. In general; we believe that introducing additional management controls in programs
such as the Voluntary Disclosure Reporting Program (VDRP) and the Air Transportation Oversight
System (ATOS) will be beneficial. These are extremely valuable programs in terms of their
contributions to FAA's safety mission. We look forward to the OIG’s continued review of ATOS.
Your evaluations and recommendations are a valued contribution to our continuous improvement
process.

OIG Recommendation 1: Implement and enforce a process for second-level supervisory review of
self-disclosures before they are accepted and closed--acceptance and closure should not rest solely
with one inspector.

FAA Response: Concur: On May 1, the FAA published interim guidance for inspectors in the form
of Notice 8900.39, Requiring Appropriate 14 CFR Part 119 Corporate Officer and FAA Office
Manager Signatures for the Voluntary Disclosure Reporting Program. In this guidance we require the
certificate holding district office management to sign off on acceptance of a VDRP.
Management must also assure that the operator has completed the comprehensive fix appropriately
before closing out the VDRP. We will have this policy change fully incorporated into our permanent
guidance, FAA Order 8900.1, Flight Standards Information Management System, by September 30.

On May 1, the FAA published interim guidance for operators in Information for Operators (InfO)
08021, explaining both the requirement for FAA management sign-off and for a key management



Appendix. Management Comments
                                                                                                      16


official in the airline to sign-off on the VDRP submission. We will include this change in an update of
Advisory Circular 00-58, Voluntary Disclosure Reporting Program, also by September 30.

OIG Recommendation 2: Ensure that inspectors (a) verify that air carriers take comprehensive
actions to correct the underlying causes of violations identified through self-disclosure programs and
(b) evaluate--before accepting a new report of a previously disclosed violation--whether the carrier
developed and implemented a comprehensive solution.

FAA Response: Concur: The notice issued on May 1 stressed management involvement by both the
operator and the FAA concerning the initial report and its close-out. We will amend the VDRP
portion of FAA Order 8900.1, and the VDRP advisory circular to emphasize reviewing the
comprehensive fix proposed by the operator to assure it addresses the issue being reported. As well,
we will update that guidance to make certain that FAA principal inspectors and management take into
consideration the nature of each report, including repeated reports of the same regulation. We will
provide specific examples in the guidance when appropriate. Order 8900.1 will be updated before the
notice expires on May 1, 2009.

OIG Recommendation 3: Develop procedures for periodically rotating supervisory inspectors to
ensure reliable and objective air carrier oversight.

FAA Response: Non-Concur: FAA is evaluating this recommendation, but is concerned that it is not
very practical to require inspectors and their families to relocate on a regular basis. Additionally,
from a budgetary perspective, the yearly costs related to a rotation of the work force every 3 years
(moving 1/3 per year) would break out as follows: Principal Inspectors -- only $12 million; Principal
Inspectors and Managers -- $27 million, and for all Flight Inspectors --$129.3 million.

OIG Recommendation 4: Implement post-employment guidance that includes a “cooling-off”
period (e.g., 2 years) that prohibits an FAA inspector hired at an air carrier he or she previously
inspected from acting in any type of liaison capacity between FAA and the carrier.

FAA Response: Concur: The FAA is implementing this recommendation through a rulemaking that
would establish a 2-year cooling-off period. During this period, a former FAA inspector hired by an
airline he/she previously inspected could not represent that airline to the FAA. The Rulemaking
Project Record, which starts the rulemaking process, was approved May 15.

OIG Recommendation 5: Ensure its air carrier oversight mission clearly identifies the flying public
as a primary stakeholder and beneficiary of its inspection efforts; FAA should commit to this in
writing and clearly communicate it to all FAA inspection staff.

FAA Response: Concur: The Associate Administrator for Aviation Safety (AVS) has visited or has
scheduled visits to every Region and to the Aeronautical Center to reiterate our commitment to the
safety of the flying public. We are considering the most effective way to communicate this
commitment to all employees.

OIG Recommendation 6: Implement a process to monitor field office inspections and alert local,
regional, and Headquarters management to overdue inspections so that immediate corrective actions
can be taken.

FAA Response: Concur: The AVS Dashboard has been modified to show the percentage of the
ATOS assessments assigned and completed, and those that have not been assigned and why (for
example, because of lack of resources). This Dashboard is reviewed by the AVS Management Team


Appendix. Management Comments
                                                                                                   17


monthly. Alert Notifications are sent by the Flight Standards Certification and Surveillance Division
to the regional division managers at the end of each calendar quarter.-

OIG Recommendation 7: Create a national review team to conduct periodic quality assurance
reviews of FAA’s oversight of air carriers to ensure that (a) appropriate processes and procedures are
being applied consistently and (b) pertinent policies, laws, and regulations are being followed.

FAA Response: Concur: The Air Carrier Evaluation Program (ACEP) is currently in place as part of
the ATOS system. We will change our guidance to require these audits on a regular basis. The Flight
Standards Service Director will convene periodically a team of FAA executive level safety
professionals to determine ACEP focus areas based on analysis of current conditions, such as trends
in surveillance, outsourcing or financial conditions. We will analyze results of focused ACEP
campaigns to direct corrective measures. Additionally, the Flight Standards Evaluation Program
(FSEP) will be used to assess whether FAA offices operate according to national policy. The Flight
Standards field managers and supervisors make up 6 FSEP audit teams. The yearly audit schedule
assigns audit teams to 30 offices throughout the Flight Standards organization, and auditors cannot
evaluate any office within their region. AFS-l receives quarterly audit reports containing all finding
and trends. All FSEP transmittals are entered as corrective action reports into the quality management
system.

OIG Recommendation 8: Establish an independent organization (that reports directly to the FAA
Administrator or Deputy Administrator) to investigate safety issues identified by FAA employees.

FAA Response: Partially Concur: AVS deployed the Safety Issues Report System (SIRS) Process on
April 30 to provide an avenue for employee to gain resolution of safety issues without fear of
repercussions, and to document issues and decisions to further promote consistency in the application
of safety standards. To date, 24 potential issues have been sent in (since the hearings)--18 of these
were sent by electronic mail directly to the Associate Administrator for Aviation Safety, and 6 were
entered into the SIRS automated system since it was deployed at the end of April. Of the total, 11
were appropriate to be accepted in SIRS; the remainder included items related to personnel issues and
employee messages of support to the Associate Administrator.




Appendix. Management Comments
